IN THE
SUPREME COURT OF THE UNITED ST8TES",,
—
PATRICIA A. MCCOLM, Petitioner,
v.
STATE OF CALIFORNIA et. al., Respondent.

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the United
States and Circuit Justice for the Ninth Circuit:
Pursuant to this Court's Rule 13.5, Petitioner Patricia A. McColm, a 73 year old female,
qualified person with disability under the American's With Disability Act, prays for an
accommodation of illness (EXHIBIT A) and disability by 60-day extension of time to file her
petition for certiorari in this Court to and including May 16; or as the 16th is a Saturday, to
Monday May18, 2020 if time extended by weekend. The form Order denying permission to
appeal in the Ninth Circuit, saying the Appeal was "DISMISSED," (EXHIBIT B) was entered
on December 18, 2019 and the time to petition for certiorari in this Court expires March 17,

1

RECEIVED
MAR - 9 71i20
OFCE
FI OF THE CLERK
SUPREME COURT, U.S.

ti

2020. An appeal raising an issue of deprivation of civil rights of constitutional interest, is not so
"insubstantial as to not warrant further review," inflicting an Order that: "it shall not proceed;" in
particular where an appeal is urgent to ensure, that effects of illness and permanent disability do
not become a measure of denying access to the court and due process in this Country.
If there is an informal process by which this Court may tell the Ninth Circuit to proceed
with the appeal; without necessity for the certiorari process, it is hereby respectfully requested in
the interest of judicial and party economy.
A copy of the form order re denial of permission to appeal is attached hereto (Exhibit B)
along with Exhibit C which contains the Ninth Circuit docket, Motion for Appointment of
Counsel and Notice of Appeal with supporting documents as required by the 25 year old "prefiling" Order, which by now; possibly, should have been vacated by time. Perhaps that is another
issue for review.
The underlying case pertains to a single California Superior Court, Trinity County clerk's
letter imposition of a 15 minute time limitation on access to court/court services; without
providing notice of cause or providing a hearing and opportunity to be heard in opposition; even
after objection and request for the facts and authority upon which the restriction is based; a
restriction which continues at this time, in disregard of Petitioner's inquiries and request to
withdraw same; and appears will continue to be a deprivation of constitutional rights, with
impunity, absent appellate review.
Petitioner is informed and believes that the prejudicial restriction on access to the
court/court services and harassment/threats pertaining thereto from court employees (clerks and
Marshals); is in retaliation for having previously filed an ADA/age discrimination/retaliation
2

civil rights action against employees of the unaccessible two admittedly biased/disqualified
judges of the Trinity County court.
Further, Petition believes that the Trinity court's unfounded prejudicial restriction and
related retaliatory harassment/threats is unconstitutional and properly enjoined as requested in the
complaint. Accordingly, the California Eastern District Court's dismissal under 28 U.S.C. 1915.,
without even a first leave to amend is wrong; as is its position that this plaintiff should have
amended the initial civil rights case; instead of filing a separate action; even though, the statute of
limitations would have run on a retroactive effort to add the cause to the 2012 case, a case that
has now also been dismissed; thus, making the magistrate judge's reasoning moot. Thus, it
appears that the real question is whether or not the Justices of the Ninth Circuit will continue to
allow its pro se unit to recommend that persons with disability be denied review and as in this
instance, without ruling, denied consideration for appointment of counsel in bringing a
constitutional issue before the court; and instead, as it appears, just recommend all such pro se
appeals not be allowed to proceed.
This application is being express mailed for filing 10 days before the due date.
Petitioner is concerned that the standard for denial of access to federal courts by persons
alleged to be "vexatious litigations;" is being measured by limitations of disability pro se.
Although this Court at some point will need to address the stigma and loss of access to justice
and destruction of life, liberty and property by imposition of insurance industry advocated
"vexatious litigant" orders; at this time, Petitioner just wants the Ninth Circuit to tell the District
Court to proceed with the case wrongfully imposing restrictions on access to the court/court
services and to enjoin such restrictions imposed without due process.
3

The extension is requested for good cause of illness, urgent conflicting medical
appointments, acute injury, limitations of disability; as well as other time limited appellate
conflicts.
It has not been possible for an earlier request by reason of continuing illness and acute
injuries on February 21 and on February 24, 2020; which added orthopedic pain and swelling to
the already limiting respiratory infection; thus also inflicting, substantial interference with sitting
and use of injured hand for keyboarding.
On January 31, 2020 it was necessary to seek emergency treatment at the Trinity Hospital
emergency department for a severe potentially life threatening respiratory illness, diagnosed as
bronchitis; from which the physician recommended against activity requiring competent
cognitive function.
On February 3, 2020, Meghnana Dipti Gadgil, M.D. at UCSF, my primary physician;
wrote a letter advising of the substantial infirmity from the lung infection, which "precludes her
attention to preparation of her court materials" making it "medically advisable to request an
extension of 60 days" for court dates; a true and correct copy of which is attached hereto as
EXHIBIT A and made a part hereof. A number of out-of-town medical appointments are
scheduled prior to the due date for filing the Petition in this case.
The respiratory illness with coughing up muck and loss of sleep, continues to cause
limitations in timely competent attention to all pending matters inflicting extreme exhaustion and
lack of concentration aggravating many symptoms of M.S. and other limitations of disability.
Petitioner has been struggling to timely prepare an opening brief on appeal, in a civil case
in which she was sued under false pretenses by Pacific Gas and Electric for a prescriptive
4

4:

easement on her property, where at trial appropriate accommodations were not provided nor
time granted to obtain the assistance of counsel. The resulting wrongful judgment Nunc pro
tunc to 1957 where there were no prior proceedings or orders of the court at that time, places
petitioner at risk of losing her home. The times are conflicting to accomplish both,of these
important matters.
Your kind consideration in granting a 60 day extension from the due date of March 17,
2020 is appreciated; to ensure a reasonable opportunity for this person with disability, to
accomplish the Petition in such a fashion as to have fair and equal opportunity with able-bodied
persons; to achieve a favorable result in this substantial civil rights case seeking review on
appeal.
Wherefore petitioner respectfully requests that an order be entered extending her time to
petition for certiorari for sixty days to and including May 16, 2020 and as 16th is a Saturday, to
Monday May 18, 2020, if time is extended by weekend.
ctfully submitted,

icia
cColm
0. Box 113
Lewiston, CA 96052
(415) 333-8000

